                   U.S. Department of Agriculture

                      Office of Inspector General
                                Southeast Region




         Audit Report
Disposition of Inventory Properties
           Puerto Rico
       Farm Service Agency
  U.S. Department of Agriculture




                            Report No. 03099-165-AT
                                          July 2004
                    UNITED STATES DEPARTMENT OF AGRICULTURE
                               OFFICE OF INSPECTOR GENERAL
                                    Southeast Region - Audit
                              401 West Peachtree Street, Suite 2328
                                     Atlanta, Georgia 30308
                             TEL: 404-730-3210 FAX: 404-730-3221




DATE:        July 9, 2004

REPLY TO
ATTN OF:     03099-165-At

SUBJECT:     Farm Service Agency, Disposition of Foreclosed Properties in Puerto Rico

TO:          Juan M. Ortiz
             State Executive Director
             Farm Service Agency, Puerto Rico


This report presents the results of the subject audit. Your June 21, 2004, response to
the draft report is included as exhibit D with excerpts and the Office of Inspector
General’s (OIG) position incorporated in the Findings and Recommendations section of
the report.    We agree with your management decisions on the report’s two
recommendations.

Please note that Departmental Regulation 1720-1 requires that you take final action on
each recommendation within 1 year after management decision. You should follow the
agency’s internal procedures for forwarding final action to the Office of the Chief
Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff
during the audit.


/S/
RAYMOND G. POLAND
Regional Inspector General
Executive Summary
Disposition of Inventory Properties Puerto Rico Farm Service Agency (Audit No.
03099-165-AT)

Results in Brief   This report presents the results of our review of the Puerto Rico Farm Service
                   Agency’s (FSA) controls over the management of acquired inventory
                   properties. The Puerto Rico FSA State Office (SO) had not complied with
                   agency sales policies for inventory properties. FSA requires that inventory
                   properties be sold within a maximum of 165 days from their acquisition
                   dates. Between January 1, 1997, and December 31, 2003, FSA sold
                   74 acquired properties with another 16 properties remaining in inventory.
                   The 74 sold properties were held as unproductive assets for an average of
                   4 years. As of December 31, 2003, the 16 inventory properties had been held
                   an average of 6 years. In general, the excessive delays were due to FSA not
                   taking timely action to sell the properties or timely following up when
                   technical or legal issues arose. The 90 properties, valued at $8.4 million
                   when they were acquired, either sold for or had a market value (per latest
                   appraisals) totaling $6.3 million -- a net decline in value of $2.1 million. The
                   delays in disposing of the unproductive assets reduced funds available to
                   finance new loans and increased FSA’s borrowing cost from the Department
                   of Treasury. Improved management of acquired properties is necessary given
                   that as of January 2004, 233 delinquent borrower accounts had either been
                   accelerated or were pending legal action with the likelihood that FSA will
                   acquire the real estate security in many cases.

Recommendations
In Brief           We recommend that FSA SO develop a control system to monitor the
                   inventory property disposition process. The system should set, in writing, the
                   roles and responsibilities of personnel involved in the disposition process and
                   the timeframes to accomplish the various phases. Also, the process should
                   require a coordinator to link the phases in the process. The coordinator
                   should prepare periodic written status reports to the State director so that any
                   problems can be timely resolved.

Agency Response    In its June 21, 2004, response, the FSA SO agreed with the recommendations
                   and outlined actions taken or purposed to implement them. (See exhibit D.)

OIG Position       We agree with the SO management decision on the recommendations.




USDA/OIG-A/03099-165-AT                                                                     Page i
Table of Contents

Executive Summary .................................................................................................................................i

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. Acquired Real Estate Was Not Sold Timely ................................................................. 3

                              Finding 1 ................................................................................................................. 3
                                  Recommendation No.1..................................................................................... 7
                                  Recommendation No. 2.................................................................................... 7

Scope and Methodology.......................................................................................................................... 9

Exhibit A – Disposition of Foreclosure Properties by FSA............................................................... 10
Exhibit B – Inventory of Acquired Properties as of December 31, 2003 ......................................... 13
Exhibit C – Schedule of Sold Properties Selected for Review .......................................................... 14
Exhibit D – Agency Response to the Draft Report ............................................................................ 15




USDA/OIG-A/03099-165-AT                                                                                                                         Page ii
Background and Objectives
Background         The Farm Service Agency (FSA), an organization of the U.S. Department of
                   Agriculture (USDA), provides direct and guaranteed loans to farmers and
                   ranchers who are unable to obtain financing from commercial credit sources.
                   FSA makes direct loans and guarantees loans made and serviced by private
                   lenders (i.e., banks). If the farmers or ranchers default on the direct loans,
                   FSA forecloses on the loans and acquires any real property serving as
                   collateral. If the property can be used for agricultural purposes, it is
                   identified as suitable property and offered for sale with FSA financing
                   available to eligible farmers and ranchers. Priority is given to the beginning
                   farmers and ranchers. If the property cannot be used for agricultural
                   purposes, it is declared as surplus property and sold without benefit of any
                   FSA financing.

                   The Consolidated Farm and Rural Development Act of 1996 amended the
                   credit programs and lending policies of FSA. Its provisions streamlined the
                   rules about the sale and management of real inventory properties. The new
                   rules were intended to expedite sale procedures and reduce program costs.
                   All inventory properties should be advertised for sale within 15 days from
                   acquisition and should be sold not later than 165 calendar days from the date
                   of acquisition.

                   During 2000 and 2001, the FSA National Office (NO) performed two
                   reviews of the disposition of foreclosed inventory property in Puerto Rico.
                   The review reports disclosed FSA’s files lacked evidence that the properties
                   were advertised for sale. In addition, appraisal reports were made using old
                   comparables and properties were sold for much less than the appraised value
                   without leaving a trail of price determination in the file.

                   Between January 1997 and December 2003, the Puerto Rico FSA State
                   Office (SO) sold 74 inventory properties. The sale prices totaled about
                   $4.5 million. As of December 31, 2003, FSA held 16 properties in inventory
                   with an appraised value of about $1.79 million. Due to the high-delinquency
                   rate affecting the farm program loan portfolio, continued acquisition of real
                   estate collateral may be expected. FSA reports showed that as of
                   January 2004, 1,055 borrowers were delinquent on their loans. Of the
                   1,055 cases, the accounts of 233 had been accelerated or were pending legal
                   action.




USDA/OIG-A/03099-165-AT                                                                   Page 1
                    Table 1
                    Accelerated                       127
                    Bankruptcy Pending                 55
                    Foreclosure Pending                44
                    Court Action Pending                7

                    Total                             233


Objectives         The audit objective was to evaluate the Puerto Rico FSA SO’s controls,
                   policies, and procedures to ensure that property disposition practices were in
                   accordance with (1) applicable regulations in Title 7, Code of Federal
                   Regulations (CFR), Part 1955, “Property Management,” Subpart C –
                   “Disposal of Inventory Property” and Subpart B – “Property Management”;
                   FSA Notice Farm Loan Program (FLP) 257 and (2) agency policies.




USDA/OIG-A/03099-165-AT                                                                   Page 2
Findings and Recommendations
Section 1. Acquired Real Estate Was Not Sold Timely

Finding 1                      The Puerto Rico FSA SO needs to improve its monitoring of inventory
                               properties to comply with agency sales policies. FSA requires that inventory
                               properties be sold within a maximum of 165 days from their acquisition
                               dates. Between January 1, 1997, and December 31, 2003, FSA sold
                               74 acquired properties and had 16 properties remaining in inventory. The
                               74 sold properties were held as unproductive assets for an average of 4 years.
                               As of December 31, 2003, the 16 inventory properties had been held an
                               average of 6 years. In general, the excessive delays were due to FSA not
                               taking timely action to sell the properties or timely following up when
                               technical or legal issues arose. The 90 properties (74 plus 16), valued at
                               $8.4 million when they were acquired, either sold for or had a market value
                               (per latest appraisals) totaling $6.3 million -- a net decline in value of
                               $2.1 million. The delays in disposing of the unproductive assets resulted in
                               reduced funds available to finance new loans and increased FSA’s borrowing
                               cost from the Department of Treasury. Improved management of acquired
                               properties is necessary given that, as of January 2004, 233 delinquent
                               borrower accounts had either been accelerated or were pending legal action
                               with the likelihood that FSA will acquire the real estate security in many
                               cases.

                               Prior to July 2, 2002, FSA’s Regulations1 provided that suitable properties be
                               sold not later than 75 days after acquisition with priority given to beginning
                               farmers and ranchers. Surplus properties were to be offered for public sale
                               by sealed bid or auction not later than 105 days after acquisition. Suitable
                               properties not sold to beginning farmers and ranchers within 75 days could be
                               declared surplus and offered to the public. Effective July 2, 2002, FSA
                               issued a notice2 that extended the timeframes for selling acquired properties
                               as authorized by the Farm Security and Rural Investment Act of 2002. The
                               time period to sell suitable property was extended from 75 days to 135 days
                               before offering it for public sale. The time for selling surplus properties was
                               extended from 105 days to 165 days from the date of acquisition. In any
                               case, acquired properties including suitable properties were to be sold within
                               165 days.




1
    FSA 7 CFR, 1955-C, section 1955.107, dated January 1, 2002.
2
    FSA Notice FLP 257, dated July 2, 2002.
USDA/OIG-A/03099-165-AT                                                                                Page 3
                             Our review of FSA’s records showed that as of December 31, 2003,
                             74 acquired properties had been sold from inventory since January 1, 1997.
                             None of the properties were sold within the prescribed timeframes. The
                             average time the properties were held in inventory was about 4 years. In
                             addition, 15 of the 16 properties in inventory as of December 31, 2003,
                             exceeded the disposal timeframes. At that time the 16 properties, with an
                             appraised market value of $1,795,040, had been held in inventory an average
                             of 6 years. Table 2 and exhibits A and B show the time the properties were
                             held in inventory as unproductive assets.

     Table 2

                               SOLD PROPERTIES                               INVENTORY PROPERTIES
                           Appraised                                         Appraised      Latest
       Years                Value at        Sale         Decline in           Value at     Appraised    Decline in
       Held         No     Acquisition     Amount         Value         No   Acquisition    Value        Value
       Less
        than
      1 - year       8       $811,501        $540,309      $271,193     1       $50,000      $50,000            $0
       1–2          14         856,625        542,894       313,731     2       139,781       85,000        54,781
       2–3          14       1,188,915        822,599       366,316
       3-4          11         568,534        494,560        73,974     2       306,000      194,500      111,500
       4-5          4          611,727        387,500       224,227     2       182,940      167,940       15,000
       5-6          10         659,950        402,685       257,265     3       306,300      219,300       87,000
       6-7          4          219,906        213,100         6,806     2       717,365      756,700      +39,335
       7-8          2          426,000        292,774       133,226
       8-9          2          521,000        170,200       350,800     1        38,000       29,000         9,000
       9 - 10
      Over 10        5         674,000        667,370          6,630    3       154,400      292,600     +138,200

         Total        74     $6,538,158      $4,533,991    $2,004,168   16   $1,894,786    $1,795,040      $99,746
     1
         Value per latest appraisal as of December 31, 2003.



                             To assess the reason for the delays, we reviewed the case file and interviewed
                             State and field office (FO) staff responsible for servicing 27 acquired
                             properties (the 16 inventory properties [see exhibit B] and 11 judgmentally
                             selected properties that had been sold [see exhibit C]).

                             The files generally did not contain a clear audit trail that (1) showed the
                             reasons for the delays, (2) disclosed when and what actions were taken to
                             resolve problems, and (3) documented decisions made regarding disposition
                             of the properties. We concluded that in general the delays were due to FSA
                             not acting timely to sell the properties and/or timely resolving issues that
                             delayed the sales. The actions included FSA’s not timely (1) determining the
                             suitability of the properties, (2) obtaining or updating appraisals as needed,
                             and (3) ensuring problems with legal documents and technical issues were
                             addressed promptly. Examples of the delays follow.

USDA/OIG-A/03099-165-AT                                                                                     Page 4
                                         Case A - On March 26, 1993, the borrower voluntarily conveyed the
                                         49.76-acre property to FSA. On September 6, 1996, an appraisal of
                                         the property was made to establish its value for inventory purposes
                                         (42 months after acquisition). The appraised value was $96,900. On
                                         February 24, 1998, (59 months after acquisition) the property was
                                         sold at auction for $15,000 -- a loss of $81,900.

                                         Regulations3 require that an existing appraisal may be used when
                                         (1) completed within the previous 12 months and the agency
                                         determines that the current market values have remained stable, or
                                         (2) it was not completed in the previous 12 months, but was updated
                                         by the appraiser that completed it. Regulations4 also specify that the
                                         property will be advertised for sale for its appraised value prior to
                                         disposal through auction sale.

                                         From our review of the case file and interviews with staff, we were
                                         unable to determine (1) any barriers to selling the property, (2) why it
                                         took so long to sell it, (3) why the appraisal was not obtained and
                                         updated timely, (4) why the property was not advertised for sale, and
                                         (5) why it sold for only $15,000, 15.5 percent of the
                                         $96,900 appraised value.

                                         The losses on inventory properties were caused, in part, because FSA
                                         opted to sell many of them at auction. Because of the high number of
                                         inventory properties, in 1997, FSA contracted with an auctioneer to
                                         sell the properties rather than attempting to market them through the
                                         advertised bid process. Under the advertised process, the minimum
                                         bid price would have to equal or exceed the properties’ appraised
                                         market value in contrast to selling to the highest bidder at auction.
                                         The noncompetitive contract with the auctioneer called for FSA to
                                         pay a $625 promotional fee per property and the buyer to pay
                                         10 percent of the sale price for the auctioneer’s commission.

                                         Case B - On January 25, 1994, FSA acquired this property through
                                         judicial sale.    On July 24, 1993, it had been appraised at
                                         $100,200 ($1,500 per acre). It was not sold until February 14, 2002,
                                         (over 8 years later).          Although it was reappraised at
                                         $166,900 ($2,500 per acre) on November 19, 2001, it was sold for the
                                         original appraised value of $100,200. Our review showed that several
                                         actions were questionable and technical issues were not timely
                                         corrected.

                                         On April 10, 1995, FSA entered into a lease/purchase contract with a
                                         farm program loan applicant to purchase the property. The contract

3
    7 CFR, Part 761.7d, “Appraisals,” dated January 1, 2003.
4
    7 CFR, Part 1955 Subpart C,” Disposal of Inventory Property,” Section 1955.107 (a) (1), dated January 1, 2002.
USDA/OIG-A/03099-165-AT                                                                                              Page 5
                                        with a time period of up to 3 years was entered into, pending FSA’s
                                        approval of the applicant’s loan. The contract called for a total rental
                                        charge of $2,000 with FSA’s commitment to finance the property for
                                        the applicant at $1,500 per acre.

                                        Regulations5 state that the farm property may be leased for a period of
                                        no longer than 3 years. The lease amount should be equal to the
                                        amounts that similar properties in the area are being leased. In no
                                        case may inventory property be leased for a token amount.

                                        In 1995, in preparation for the sale of the property to the applicant,
                                        FSA discovered that the contract attorney handling the
                                        January 25, 1994, judicial sale had not taken action to remove several
                                        junior liens against the property. It was not until January 27, 1999,
                                        that another contract attorney prepared a second judicial sale deed and
                                        removed the liens.

                                        The lease expired on April 10, 1998, however, the applicant continued
                                        farming the property for another 4 years without renewal of the lease
                                        or payment of rent. The applicant purchased the property on
                                        February 14, 2002, after paying only a token amount of rent
                                        ($2,000) for 7 years. Although the property was reappraised at
                                        $166,900 ($2,500 per acre), on November 19, 2001, FSA sold it to the
                                        applicant for the original agreed price of $100,000 ($1,500 per acre).

                                        Case C – On May 9, 1992, the former borrower voluntarily
                                        conveyed two farms and a residence to FSA. For reasons we could
                                        not determine, the residence was not entered into the FSA property
                                        system and, therefore, was not accounted for as an inventory property.
                                        Documentation in the files showed that in October 1992 the SO
                                        inquired of the FO about the status of the property because it had not
                                        been recorded in the acquired property system. The files did not show
                                        what action, if any, was taken regarding the inquiry.

                                        In 2002 (10 years later), the FSA FO manager discovered the
                                        unaccounted for property when the wife of the former borrower
                                        visited the office to ask permission to make repairs to the residence;
                                        she had occupied the residence rent-free since 1992. An April 25,
                                        2002, appraisal valued the property at $54,000. On December 20,
                                        2002, the property was sold to the occupant for the appraised price.




5
    7 CFR, Section 1955.66, “Leased Property,” dated January 1, 1995.
USDA/OIG-A/03099-165-AT                                                                                  Page 6
                   In 2002, the FSA SO took actions to improve management of inventory
                   properties. For example, it centralized the disposition of the properties at the
                   SO in an effort to control and expedite the process, a staff appraiser
                   completes the appraisals, and advertises the properties for sale through
                   placement of public announcement in the media. The SO should also
                   develop controls to improve monitoring of the inventory disposition process,
                   assign responsibilities, and document an audit trail to record when actions are
                   taken and causes for any delays.

                   At the May 5, 2004, exit conference the State director stated that problems
                   with disposal of inventory properties stemmed from minimal servicing of the
                   loan portfolio and acquired properties prior to 2000. He also stated that in
                   some cases the county offices might have improperly recorded the acquisition
                   dates as the date when the former borrowers voluntarily conveyed the
                   properties to FSA rather than when the deed was recorded at the courthouses.
                   According to the State director, some local offices of the Public Registry had
                   delays of several years in recording the deeds and FSA could not sell
                   properties until the deeds were recorded.

                   The State director also noted that a new Farm Program director came on
                   board in August 2003, and in September a staff member was appointed to
                   coordinate inventory properties. The staff coordinator was now tracking
                   actions taken and impediments to disposal of inventory properties.

Recommendation No.1

                   Develop a control system to monitor the inventory property disposition
                   process. The system should set in writing the roles and responsibilities of
                   personnel involved in the disposition process, and the timeframes to
                   accomplish the various phases. Also, the process should require a
                   coordinator to link the phases in the process. The coordinator should prepare
                   periodic written status reports to the State director so that any problems can
                   be timely resolved.

Recommendation No. 2

                   Design and implement a control record to ensure that requirements related to
                   the disposition of inventory properties are tracked and adequately
                   documented in the case files. The record should indicate the requirements
                   that should be documented in the file, the timeframe to accomplish each of
                   the requirements, who within the agency is responsible to perform each
                   requirement, and the date each requirement was completed.




USDA/OIG-A/03099-165-AT                                                                     Page 7
                   Agency Response. In its June 21, 2004, response, the FSA SO agreed
                   with the recommendations. The response stated:

                          *      *      *       *      *       *      *       *      *

                          As a corrective action measure, the Farm Loan Chief has
                          already properly instructed the Inventory Property
                          Coordinator concerning his role and responsibilities.
                          Currently, the State Coordinator is responsible to maintain a
                          control system to monitor the process of disposing acquired
                          properties that includes disposition of properties, need for
                          appraisals, suitability, delays and actions taken for the
                          disposition within established timeframes.         The State
                          Coordinator is being monitored by the Farm Loan Chief to
                          ensure that he is carrying out his responsibilities for
                          improving the managing and fulfillment of the FSA provisions
                          and regulations.

                          As requested by the National office this office is also
                          preparing quarterly reports including current status,
                          problems, actions necessary to solve problems and the
                          anticipated completion dates for the actions.

                          As recommended and to formalize the actions mentioned
                          above, as of July 30, 2004, this office will develop a State
                          directive that describes the roles, responsibilities and the
                          process involved in disposing of inventory properties. This
                          process will delineate the timeframes established by the
                          National office as well as the requirements for the disposition
                          in accordance with FSA regulations and State laws due to the
                          differences of the recording requirements of PR in regards to
                          legal tenancy.

                          *      *      *       *      *       *      *       *      *

                          OIG Position. We agree with the management decisions.
                          For final action, the FSA SO should provide a copy of the
                          purposed State directive to the Office of the Chief Financial
                          Officer.




USDA/OIG-A/03099-165-AT                                                                     Page 8
Scope and Methodology
                   Our review covered dispositions of inventory properties during the year
                   1997 through December 2003. During this period, FSA sold 74 properties
                   for approximately $4.5 million.           We reviewed the case files of
                   11 judgmentally selected properties that were sold and obtained information
                   from FSA on the 16 properties held in inventory as of December 31, 2003.
                   The 11 sold properties were selected for review based on the length of time
                   held in inventory, losses in value, year sold, and sales price per acre.

                   We performed work at the FSA SO located in San Juan, Puerto Rico, and
                   FSA FO’s located in Adjuntas, Caguas, Corozal, Ponce, Mayaguez, and the
                   Office of the Public Registry. We evaluated whether FSA followed
                   applicable policies and regulations in the disposition of inventory properties.

                   Our review was performed in accordance with generally accepted
                   government auditing standards. To accomplish the review objectives, we
                   performed the following:

                   •      reviewed USDA’s policies and procedures regarding the management
                          and disposition of inventory property;

                   •      interviewed managers and other staff from the FSA SO and FO’s;

                   •      reviewed files and documentation related to the acquired properties;

                   •      obtained and reviewed reports issued by the FSA NO, reports of loans
                          delinquency, and inventory of properties; and

                   •      visited the local Office of the Public Registry to obtain information
                          about properties sold by FSA.




USDA/OIG-A/03099-165-AT                                                                    Page 9
 Exhibit A – Disposition of Foreclosure Properties by FSA
                                                                                                 Exhibit A – Page 1 of 3




                  Acquired Properties Sold by FSA -Year 1997 Through 2003
       Date                                                                                        Difference in
                                Type of Method of Months in                    Original Market
No. Acquired by   Date Sold                                      Sale Price                      Original Market
                                 Farm     Sale    Inventory                         Value
       FSA                                                                                      Value vs. Sale Price
 1    5/19/1982     7/10/1998   Suitable    Auction      196.4   $110,000.00        $175,000.00        $(65,000.00)
 2    12/4/1985     6/12/1998   Suitable      Cash       152.3    262,000.00         210,000.00            52,000.00
 3    12/4/1985      7/2/1997   Suitable      Cash       140.8    110,000.00         110,000.00
 4    12/4/1985      5/1/1997   Suitable      Cash       138.8    131,370.00         125,000.00             6,370.00
 5     5/9/1992    12/20/2002   Surplus       Cash       129.2     54,000.00          54,000.00
 6    8/12/1993     2/14/2002   Suitable   Credit Sale   103.5    100,200.00         132,000.00          (31,800.00)
 7    1/10/1990     3/27/1998   Suitable      Cash        99.9     70,000.00         389,000.00        (319,000.00)
 8    9/14/1990     11/6/1997   Suitable      Cash        86.9    169,000.00         308,000.00        (139,000.00)
 9    10/8/1991     11/4/1998   Suitable    Auction       86.1    123,774.45         118,000.00             5,774.45
10 10/21/1996       6/12/2003   Suitable   Sealed Bid     80.8    105,000.00          51,606.00            53,394.00
11    1/28/1993     6/24/1999   Suitable      Cash        77.9     47,000.00          71,000.00          (24,000.00)
12    1/14/1993      6/2/1999   Suitable      Cash        77.6     47,500.00          47,500.00
13    3/27/1992     5/15/1998   Suitable      Cash        74.7     13,600.00          49,800.00          (36,200.00)
14    10/8/1991      9/6/1997   Suitable    Auction       71.9     34,320.00          50,900.00          (16,580.00)
15    6/24/1992     2/17/1998   Suitable   Credit Sale    68.8     20,000.00          45,000.00          (25,000.00)
16    1/14/1992      9/2/1997   Suitable      Cash        68.6    109,275.00         121,000.00          (11,725.00)
17    11/4/1997     6/12/2003   Surplus    Sealed Bid     68.2      7,100.00           8,650.00           (1,550.00)
18    8/25/1992     1/28/1998   Suitable      Cash          66     53,500.00          74,400.00          (20,900.00)
19 11/12/1992       4/15/1998   Suitable      Cash          66     13,600.00          76,300.00          (62,700.00)
20    5/13/1993     9/16/1998   Suitable    Auction        65      88,390.50         118,000.00          (29,609.50)
21    7/16/1992     11/7/1997   Suitable      Cash        64.7     28,000.00          64,000.00          (36,000.00)
22    7/23/1992     9/30/1997   Suitable    Auction       63.2     33,500.00          69,000.00          (35,500.00)
23     2/1/1993     3/19/1998   Suitable    Auction       62.4     15,000.00          32,700.00          (17,700.00)
24    3/26/1993     2/24/1998   Suitable    Auction       59.8     15,000.00          91,800.00          (76,800.00)
25    7/13/1993    10/24/1997   Suitable   Credit Sale    52.1     62,500.00          62,900.00             (400.00)
26    5/18/1993     5/30/1997   Suitable      Cash        49.1     10,000.00          15,600.00           (5,600.00)
27    4/22/1993      5/2/1997   Surplus     Auction        49     300,000.00         441,427.00        (141,427.00)
28    9/28/1993      9/6/1997   Suitable    Auction       47.9     85,500.00          93,734.00           (8,234.00)




 USDA/OIG-A/03099-165-AT                                                                                     Page 10
Exhibit A – Disposition of Foreclosure Properties by FSA
                                                                                                   Exhibit A – Page 2 of 3




                  Acquired properties sold by FSA -Year 1997 through 2003

      Date                                                                                       Difference in Original
                              Type of    Method of     Months in                    Original
No. Acquired     Date Sold                                          Sale Price                   Market Value vs. Sale
                               Farm        Sale        Inventory                   Market Value
     by FSA                                                                                              Price
29 6/10/1993      4/11/1997   Surplus     Auction            46.7     $20,100.00      $22,800.00             $(2,700.00)
30 8/30/1994      3/19/1998   Suitable      Cash             43.2      60,000.00       60,000.00
31    6/1/1994   11/18/1997   Suitable      Cash             42.2      26,000.00       24,000.00                2,000.00
32 6/23/1994      12/3/1997   Suitable    Auction            41.9      43,000.00       45,000.00              (2,000.00)
33 8/30/1994     11/19/1997   Suitable    Auction            39.2      70,000.00       80,000.00             (10,000.00)
34 4/12/1995      7/10/1998   Surplus       Cash               39      46,000.00       48,000.00
35 1/26/1994      4/11/1997   Suitable   Credit Sale         39.5      43,160.00       59,000.00             (15,840.00)
36    6/1/1994    6/23/1997   Suitable      Cash             37.2      15,800.00       16,000.00                (200.00)
37 8/30/1994       9/5/1997   Suitable   Credit Sale         36.7      34,000.00       34,000.00
38 8/29/1997      8/25/2000   Surplus     Auction            36.3      51,000.00       86,000.00             (35,000.00)
39 11/29/1995     11/9/1998   Suitable      Cash             35.8      12,100.00       12,100.00
40 7/12/1994      5/13/1997   Suitable    Auction            34.5      80,648.67      180,200.00             (99,551.33)
41 11/9/1994      8/22/1997   Surplus     Auction            33.9       6,600.00       18,600.00             (12,000.00)
42 12/3/1997      8/25/2000   Suitable    Auction            33.1      79,200.00      112,625.00             (33,425.00)
43 3/15/1995     11/24/1997   Suitable    Auction            32.8      26,400.00       61,000.00             (34,600.00)
44 7/14/1995      2/28/1998   Surplus       Cash               32     123,000.00      123.000.00
45 4/30/1998     11/28/2000   Surplus     Auction            31.4     122,100.00      184,000.00             (61,900.00)
46 11/15/1994     5/20/1997   Suitable    Auction            30.5      56,000.00       37,600.00               18,400.00
47    4/4/1995    9/26/1997   Suitable      Cash             30.2      57,400.00       56,700.00                  700.00
48 1/11/1995      5/27/1997   Suitable   Credit Sale         28.9      26,300.00       26,300.00
49 5/17/1995      9/30/1997   Suitable   Credit Sale         28.9      23,000.00       35,000.00             (12,000.00)
50 8/17/1995      11/7/1997   Suitable    Auction            27.1      83,050.00      109,400.00             (26,350.00)
51 3/20/1995      5/30/1997   Suitable      Cash             26.7     112,500.00      210,000.00             (97,500.00)
52    8/2/1995    9/22/1997   Suitable   Credit Sale           26      14,300.00       22,390.00              (8,090.00)
53    8/5/1995    7/23/1997   Suitable      Cash             23.9      20,000.00       45,000.00             (25,000.00)
54 11/29/1995     11/3/1997   Suitable      Cash             23.5      16,494.00       17,000.00                (506.00)
55 11/15/1995     9/26/1997   Suitable   Credit Sale         22.7     103,250.00      157,000.00             (53,750.00)




USDA/OIG-A/03099-165-AT                                                                                     Page 11
Exhibit A – Disposition of Foreclosure Properties by FSA
                                                                                                  Exhibit A – Page 3 of 3




                 Acquired properties sold by FSA -Year 1997 through 2003

                                                                                                        Difference in
    Date Acquired                 Type of    Method of     Months in                     Original         Original
No.                  Date Sold                                           Sale Price
       by FSA                      Farm        Sale        Inventory                    Market Value    Market Value
                                                                                                        vs. Sale Price
56       4/30/1998       2/3/2000 Surplus     Auction            21.5      $33,000.00       $53,500.00     $(20,500.00)
57      11/15/1995       8/8/1997 Suitable    Auction              21       20,000.00       116,900.00       (96,900.00)
58       1/18/1996      9/22/1997 Suitable   Credit Sale         20.4       17,700.00        28,000.00       (10,300.00)
59        3/4/1996     10/24/1997 Suitable   Credit Sale           20       30,000.00        38,000.00        (8,000.00)
60       4/30/1998     12/10/1999 Surplus     Auction            19.6       91,000.00       146,650.00       (55,650.00)
61        7/2/1996       2/6/1998 Surplus       Cash             19.5       15,000.00        26,000.00       (11,000.00)
62        6/9/1998     11/29/1999 Suitable      Cash             17.9       28,000.00        48,000.00       (20,000.00)
63        7/2/1996     10/16/1997 Surplus       Cash             15.7       56,000.00        56,000.00
64        5/7/1998       6/8/1999 Suitable    Auction            13.2       78,450.00        78,450.00
65        2/6/1997       3/5/1998 Suitable    Auction            13.1        8,000.00        20,125.00     (12,125.00)
66        7/2/1996       7/1/1997 Surplus       Cash             12.2       26,000.00        26,000.00
67        8/3/1996      6/16/1997 Surplus     Auction            10.6       90,483.11       125,000.00     (34,517.00)
68       1/23/1997     11/12/1997 Surplus     Auction             9.8      102,300.00       297,000.00    (194,700.00)
69       7/16/1999       3/8/2000 Surplus       Cash              7.8      120,000.00       114,948.00        5,052.00
70       4/28/1997     12/15/1997 Surplus     Auction             7.7       33,000.00        52,000.00     (19,000.00)
71      12/14/1996      6/28/1997 Suitable    Auction             6.6       33,534.29        38,000.00      (4,465.71)
72       12/3/1997       6/1/1998 Surplus     Auction               6       16,000.00        16,000.00
73      10/12/1999      3/23/2000 Suitable      Cash              5.4       75,000.00        75,000.00
74        2/6/1997      5/20/1997 Suitable    Auction             3.4       69,991.31        93,553.00     (23,561.69)
       Totals                                                           $4,533,991.33    $6,538,158.00 $(2,004,166.78)
       Total months in inventory                               3522.8
       Average months in inventory                              47.61
       Average years in inventory                                3.97




USDA/OIG-A/03099-165-AT                                                                                    Page 12
Exhibit B – Inventory of Acquired Properties as of December 31, 2003
                                                                                             Exhibit B – Page 1 of 1




                 Inventory of Acquired Properties as of December 31, 2003

                                                                                                  Difference
OIG                                 Months                                                     Acquisition Value
Case                   Type of    Property in Acquisition Current Market        Date of Last vs. Current Market
No. Date Acquired       Farm       Inventory    Value         Value              Appraisal          Value
  1      12/4/1985     Suitable          219.9    $35,000       $152,000            3/30/2003            $117,000
  2      1/13/1993     Surplus           133.4      58,400         58,400            unknown
  3      7/21/1993     Surplus           127.1      61,000         82,200          10/24/2003               21,200
  4      8/30/1995     Suitable          101.4      38,000         29,000           11/4/2003              (9,000)
  5     10/21/1997     Surplus            75.3    175,665         215,000           10/1/2003               39,335
  6     12/10/1997     Suitable           73.7    541,700         541,700          12/19/1997
  7      4/30/1998     Surplus            69.0    109,150          60,000           4/17/2003             (49,150)
  8      4/30/1998     Surplus            69.0    109,150          46,600           4/17/2003             (62,550)
  9       1/4/1999     Suitable           60.7      88,000        112,700           11/4/2003               24,700
 10     10/12/1999     Suitable           51.3      45,000         30,000          11/14/2003             (15,000)
 11      11/4/1999     Surplus            50.5    137,940         137,940           7/15/2002
 12      2/16/2000     Suitable           47.1    276,000         176,500           10/1/2003             (99,500)
 13     10/26/2000     Suitable           38.7      30,000         18,000          11/17/2003             (12,000)
 14      8/26/2002     Suitable           16.4      79,781         36,000          10/29/2003             (43,781)
 15      8/26/2002     Surplus            16.4     60,000          49,000           12/2/2003             (11,000)
 16      9/30/2003     Surplus             3.0      50,000         50,000             3/9/2003
Totals                                          $1,894,786.00   $1,795,040.00                          $(99,746.00)
Total months in inventory              1152.9
Average months in inventory              72.1
Average years in inventory                6.0




USDA/OIG-A/03099-165-AT                                                                               Page 13
 Exhibit C – Schedule of Sold Properties Selected for Review
                                                                                               Exhibit C– Page 1 of 1




             Schedule of Acquired Properties Sold by FSA Selected for Review

                                                                             Difference
                                     Months     Date of Value per            Appraised Appraisal
OIG Type of Date    Sale            Property in Latest  Appraisal             Value vs Support
Case Farm Acquired Method Date Sold Inventory Appraisal Completed Sale Price Sale Price Sale Price
  1   Surplus 8/29/1997 Auction         8/25/2000    36.00   2/3/1996 *    $86,000   $51,000      $35,000      No
  2   Surplus 4/30/1998 Auction        12/10/1999    19.00    6/30/1998    146,650    91,000       55,650      No
  3   Suitable 1/28/1993    Cash        6/24/1999    77.00 11/25/1995 *     47,000    47,000            0      Yes
  4   Suitable 3/27/1992    Cash        5/15/1998    75.00 12/17/1997       13,600    13,600            0      Yes
  6   Suitable 1/10/1990    Cash        3/27/1998    99.00    3/20/1998     70,000    70,000            0      Yes
  5   Suitable 11/12/1992   Cash        4/15/1998    66.00 12/17/1997       13,600    13,600            0      Yes
  7   Suitable 3/26/1993 Auction        2/24/1998    59.00     9/6/1996     96,900    15,000       81,900      No
  8   Suitable 10/8/1991 Auction        11/5/1997    71.00    2/23/1993     50,000    34,320       15,680      No
  9   Suitable 8/12/1993 Credit Sale    2/14/2002   103.50 11/19/2001*     166,900   100,000       66,900      No
 10   Surplus 4/12/1995     Cash        7/10/1998    39.00    3/16/1997     46,000    46,000            0      Yes
 11   Surplus   5/9/1992    Cash       12/20/2002   129.20    4/25/2002     54,000    54,000            0      Yes
Totals                                                                    $790,650 $535,520     $255,130
Total months in inventory                           773.70
Average months properties were in inventory          70.34
Average years properties were in inventory            5.86

NOTE: *Appraisal completed by private vendor




 USDA/OIG-A/03099-165-AT                                                                                    Page 14
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 1 of 2




USDA/OIG-A/03099-165-AT                                       Page 15
Exhibit D – Agency Response to the Draft Report
                                                  Exhibit D – Page 2 of 2




USDA/OIG-A/03099-165-AT                                       Page 16
